>
I

C@OCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 5
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-963

HENRY SCHEIN, INC.,
Petitioner,
v.
ARCHER AND WHITE SALES, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSORS
DANIEL D. BARNHIZER, JEFFREY L. HARRISON, DAVID HORTON, LEE KOVARSKY,
STEPHEN I. VLADECK, AND ERNEST A. YOUNG AS AMICI CURIAE IN SUPPORT OF
RESPONDENT in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 6721 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of October, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Keone. 0. Ae Qudraw- Ke Chk
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40177
